No. 19-1262

In Wife

Supreme Court of tfje QHntteb States
Steven E. Greer, MD
Petitioner,
vs.

Dennis Mehiel, Robert Serpico,
The Battery Park City Authority
Respondents.

On Writ of Certiorari to
the United States Court ofAppeals
for the Second Circuit
PETITION FOR A REHEARING
Steven E. Greer pro se
7029 Maidstone Drive
Port Saint Lucie, Florida 34986
steve@greerjournal.com
(212) 945-7252

RECEIVED
AUG 3 - 2020
SUPREME"COI WT-F.RqK

1

Petition for Rehearing
Pursuant to Rule 44 of the Supreme Court of the
United States, Petitioner Steven Greer hereby
respectfully petitions for a rehearing of this case before a
full-bench of nine Justices.
Grounds for Petition
The grounds by which the petition for rehearing is
made is an incapacitation of this Court due to medical
illnesses of multiples Justices that prevented a full-bench
conference to convene on June 18, 2020 when the writ
certiorari was first heard.
Timeliness
The writ certiorari for Greer v. Mehiel, 19*1262,
was heard on June 18, 2020 and denied on June 22,
exactly 25 days prior to the first submission of this
motion, thereby making it timely. A letter of deficiency
from this Court was mailed on June 23rd granting a 15day extension of time by which Petitioner could resubmit
the motion. This second submission was shipped via
FedEx on July 28th in timely fashion to that deadline.
Nature of the Case
The writ certiorari of Greer v. Mehiel, 19-1262,
deals with the underlying case of Greer v. Mehiel, 15-cv6119 SDNY, which is based on First Amendment causes
of action. Petitioner was exercising his rights to freedom
of the press, freedom of speech, and freedom to petition
the state when he was retaliated against in 2014. A
collusion of State and private bad actors forced him out of
his apartment home in Lower Manhattan where he had
lived for 14-years and ran a popular local news website.
The private sector defendants settled the case for
an award worth more than $600,000 to Petitioner. The
district court awarded summary judgment to the

2

remaining State defendants. All of the State defendants
have been removed from their jobs.
The appeals court upheld the district court award
of summary judgment. By doing so, they raised two
important constitutional questions and a third federal law
question.
The Lozman question
Did the lower courts misapprehend, then ignore
completely on appeal, Lozman v. City of Riviera Beach.
Fla.. 13 8 S, Ct. 1945 (2018) in denying the Rule 60
motion and appeal? Was Greer v Mehiel indeed
remarkably similar to Lozman. and therefore the probable
cause defense should not have defeated the two First
Amendment retaliation claims (i.e. that Greer’s rights to
petition and to report in the press were violated as well as
being retaliated against via eviction)?
The Monell question
Respondent Dennis Mehiel, who was both the CEO
and Chair of the Board of the Battery Park City Authority
(“BPCA”) at the time, was considered by the lower courts
as not having “final policymaking authority”? Did the
lower courts misapprehend Monell v. Dent, of Soc. Srvcs.
of the City of NY. 436 U.S. 658 (1978) and set a dangerous
precedent making it virtually impossible for a citizen to
sue a government agency unless the board meets and
publicly agrees to violate a constitutional right?
Related, if an individual respondent is removed
during early stages of motion to dismiss, as Mr. Mehiel
was in this case, but then later admits under oath to the
acts that violated the First Amendment, should the courts
ignore that evidence?

3

Pertinent Facts to this Motion for Rehearing
Based on statements from Justice Ruth Bader
Ginsburg and articles in the press, the judge’s Stage-4
pancreatic cancer is progressing. She has been undergoing
toxic chemotherapy since May after less toxic
immunotherapies failed. The judge has also been
hospitalized on more than one occasion this year for
treatment of sepsis, including in the month of June.
Petitioner, a medical doctor, is saddened to learn of
this. Based on these facts, it is likely that Justice
Ginsburg was significantly incapacitated in the month of
June when the writ was evaluated by the panel.
Likewise, it was reported in the press that Chief
Justice Roberts was also seriously ill in the month of
June. He reportedly suffered a head injury while walking
and was hospitalized overnight. Those facts indicate that
Chief Justice Roberts very well could have been mentally
incapacitated from concussion syndrome for two-weeks of
the month.
Petitioner need not provide more evidence given
that the Justices adjudicating this motion know the facts.
If Justices Ginsburg and Roberts were indeed unable to
be active participants in the review panel of June 18, then
Petitioner’s writ was prejudiced and deserves a rehearing
due to the lack of a full-bench hearing.
Importantly, had Petitioner known sooner about
the ailments facing those Justices, rather than learning
about them months after the facts, he likely would have
motioned for the writ to have been reviewed at a later
panel in the 2020 sessions. Instead, he opposed
Respondents’ motion for an extension of time, which
resulted in the June 18th review date.
In addition to those issues specific to Justices
Ginsburg and Roberts, all of the nine Supreme Court
Justices, and their law clerks who do the heavy lifting,
have been unable to perform their normal duties due to
the pandemic rules of court. Courts all over the country
are trying to cope with new ways to conduct oral
arguments and trials remotely via Internet. Cases are
backlogging. The Supreme Court is not immune to those
pressures. Perhaps not coincidentally, no writ was
granted on merit from the June 18th review session.

|

4

The History of Similar Events
Since the passing of the United States Constitution
and then the Judiciary Act of 1789, there have been many
instances of Justices who were allowed to serve on the
bench despite being incapacitated. Since the 1990’s alone,
Chief Justice Rehnquist was rumored to have been
addicted to opioid medications and Justice Marshall was
pressured into retirement by a scathing decision by
Justice O’Conner.1
Legal scholars, and even former Justices, have
questioned whether the framers of the constitution erred
by not placing an age limit on federal judges.2 Congress
has made several serious attempts at reforming laws that
would allow for incapacitated judges to be removed
without having to resort to impeachment. From 1937
through 1955, two major efforts to add a constitutional
amendment mandating retirement at age 75 almost came
to fruition. Less drastic legislative solutions were then
proposed in the 1970’s.
Now, the controversial decision by Justice Ginsburg
to stay on the bench at age 87, with serious illnesses, is
stirring skepticism anew about the ability of the Supreme
Court to self-regulate and maintain quality control. There
is a revived interest in age limits on the federal benches.
Case Precedent for this Motion for Rehearing
If it is true that one or more Justices were not in
their full capacity, or even present at all, for the June 18
2020 writ review conference, then a full-bench did not
1 “Eight days after that decision in Gregory v Ashcroft, Thurgood
Marshall finally announced his retirement from the Court.” From The
University of Chicago Law Review. Vol. 67, No. 4, Autumn, 2000
2 “Justice Lewis F. Powell, Jr., retired from the Court at age seventynine. Powell told reporters upon announcing his departure that "I
believe I said some years ago that it would have been wise for the
Founding Fathers to have required retirement of federal judges at a
specified age, perhaps
at 75.” From The University of Chicago Law Review. Vol. 67, No. 4,
Autumn, 2000

5

assemble. While it is rare for Rule 44 motions to be
granted, it is not unusual for rehearing under
circumstances when there is not a full-bench.
This Court has often granted rehearings to allow
for a full-bench procedure. “[R]ehearing petitions have
been granted in the past where the prior decision was by
an equally divided Court and it appeared likely that upon
reargument a majority one way or the other might be
mustered.” Stephen M. Shapiro et al., Supreme Court
Practice § 15.6(a), at 838 (10th ed. 2013). “The small
number of cases in which a full Bench can rehear a case
decided by an equal division probably amounts to the
largest class of cases in which a petition for rehearing
after decision on the merits has any chance of success.” Id.
at 839.
Examples of this Supreme Court granting motions
for rehearing due to the lack of a full-bench include,
United States v. One 1936Model Ford V~8 De Luxe
Coach, 305 U.S. 666 (1938), Pollock v. Farmers’ Loans &
Trust Co., 158 U.S. 617 (1895). This Court has also
commonly deferred rehearings for months until a fullbench could be assembled. Examples include, Halliburton
Oil Well Cementing Co. v. Walker, 327 U.S. 812, and
MacGregor v. Westinghouse Elec. &Mfg. Co., 329 U.S.
402 (1947)

6
Conclusion
Based on the official statements from this Court
regarding recent illnesses of Justices Roberts and
Ginsburg, any medical doctor or jury would conclude that
they were incapacitated during the month of June when
this writ certiorari was supposed to have been reviewed
by a full-bench. Those facts were not made public until
after the review session on June 18, 2020. Had Petitioner
known, he would have motioned for a postponement of the
June 18th session. Therefore, in order to comply with the
standard operating procedure of The Supreme Court, this
motion for rehearing should be granted.
Respectfully submitted on July 28th, 2020

Steven E. Greer pro se
7029 Maidstone Drive
Port Saint Lucie, Florida 34986
steve@greerjournal.com
(212) 945-7252

No. 19-1262

3n m
Supreme Court of tlje 3Hnttcb ^>tatcg
Steven E. Greer, MD
Petitioner,
vs.
Dennis Mehiel, Robert Serpico,
The Battery Park City Authority
Respondents.

On Writ of Certiorari to
the United States Court ofAppeals
for the Second Circuit

Certificate of Filing in Good Faith
Per Rule 44

Steven E. Greer pro se
7029 Maidstone Drive
Port Saint Lucie, Florida 34986
steve@greerjournal.com
(212) 945-7252

1

Certificate of Filing in Good faith
Pursuant to Rule 44 of the Supreme Court of the
United States, Petitioner Steven Greer hereby certifies
that this motion for rehearing of the writ certiorari was
made in good faith, based on the grounds that a full-bench
was not convened on June 18, 2020, and is not a frivolous
motion designed to delay the outcome of the case.

Steven Greer, pro se
July 28th, 2020

